   September 24, 2004




Information Technology
Defense Hotline Allegations
Concerning the Collaborative Force-
Building, Analysis, Sustainment, and
Transportation System
(D-2004-117)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACAT                  Acquisition Category
CDD                   Capabilities Development Document
CFAST                 Collaborative Force-Building, Analysis, Sustainment, and
                         Transportation
CJCS                  Commander Joint Chiefs of Staff
COE                   Common Operating Environment
DFARS                 Defense Federal Acquisition Regulation Supplement
DISA                  Defense Information Systems Agency
GCCS-J                Global Command and Control System-Joint
ICD                   Initial Capabilities Document
JOPES                 Joint Operation Planning and Execution System
USJFCOM               U.S. Joint Forces Command
          Office of the Inspector General of the Department of Defense
Report No. D-2004-117                                                 September 24, 2004
   (Project No. D2004LG-0079)

         Defense Hotline Allegations Concerning the Collaborative
                  Force-Building, Analysis, Sustainment,
                       and Transportation System

                                Executive Summary

Who Should Read This Report and Why? Acquisition professionals and program
managers responsible for the development of joint information systems and planners who
use those systems should read this report. It explains how management control
documentation provides program managers with the information they need to make
informed program decisions on systems in the acquisition process.

Background. The Collaborative Force-Building, Analysis, Sustainment, and
Transportation (CFAST) system was initially developed by the U.S. Pacific Command
and was later overseen by the Joint Staff. The Joint Staff adopted CFAST as a system
that would provide the ability to rapidly determine transportation requirements; aid in the
analyses of courses of action; and project the delivery of troops and equipment by air,
land, and sea. The Joint Staff promoted CFAST to the planning community as a system
that could be used to meet planning requirements set forth by the Secretary of Defense in
the Defense Planning Guidance for FYs 2004 through 2009.

This audit was conducted in response to six allegations made to the Defense Hotline
regarding the development of the CFAST system. The complainant alleged that the
system was being developed without approved requirements; was not in compliance with
common operating environment requirements; was not interoperable with the Global
Command and Control System-Joint; did not have an executive agent; was diverting
funds from the Global Command and Control System-Joint; and was a proprietary
application.

Results. We reviewed CFAST to determine whether management controls were in place
to ensure the appropriate development of CFAST. The Joint Staff did not take
appropriate actions to document CFAST development. Specifically, the Joint Staff did
not comply with Chairman of the Joint Chiefs of Staff guidance while developing the
CFAST system because the Joint Staff had not prepared the required Joint Capabilities
Integration and Development System documentation. As a result, the Joint Staff did not
have the necessary management control documentation to justify the initiation of
CFAST, to compare budgeted and actual costs, to measure performance requirements, to
track scheduled and actual timelines, or to ensure other systems’ capabilities were taken
into consideration. On June 23, 2004, the Vice Chairman of the Joint Chiefs of Staff
issued a memorandum assigning the U.S. Joint Forces Command as the functional
proponent of CFAST and the Defense Information Systems Agency as the lead
Component. The memorandum states that the Defense Information Systems Agency will
assign CFAST a program manager and provide future funding for CFAST development.
The memorandum also requested that the U.S. Joint Forces Command and the Defense
Information Systems Agency provide a plan of action for the future development of
CFAST. When the U.S. Joint Forces Command develops the required documentation,
the management control weakness we identified for CFAST will be corrected. (See the
Finding section of the report for the detailed recommendation.)

Except for the diversion of funds, the allegations made to the Defense Hotline were
substantiated. However, management actions initiated or planned either have or will
address the substantiated allegations. (See Appendix B for a summary of the specific
allegations.)

Management Comments and Audit Response. The Chief of Staff, U.S. Joint Forces
Command concurred with the audit findings and partially concurred with the
recommendation. He concurred with the recommendation to develop management
control documentation but did not agree that the development of an initial capabilities
document should be required. He stated that the command is conducting a “Quick Look
and Final Capability Needs Analysis,” which will determine whether an initial
capabilities document is required. The analysis is expected to be completed by
January 30, 2005.

Management comments are responsive, and no additional comments are required. As a
result of management comments, we revised the recommendation to delete the specific
requirement for the creation of an initial capabilities document. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    2

Finding
     Management of the Collaborative Force-Building, Analysis, Sustainment,
       and Transportation System                                              3

Appendixes
     A. Scope and Methodology                                                  8
         Management Control Program Review                                     9
         Prior Coverage                                                       10
     B. Summary of Allegations                                                11
     C. Report Distribution                                                   14

Management Comments
     U.S. Joint Forces Command                                                17
Background
           We performed this audit in response to allegations made to the Defense Hotline
           concerning the development of the Collaborative Force-Building, Analysis,
           Sustainment, and Transportation (CFAST) system. The complainant alleged that
           the system was being developed without approved requirements; was not in
           compliance with common operating environment requirements; was not
           interoperable with the Global Command and Control System-Joint (GCCS-J); did
           not have an executive agent; was diverting funds from the GCCS-J; and was a
           proprietary application.

           Except for the diversion of funds, the allegations made to the Defense Hotline
           were substantiated. However, management actions initiated or planned either
           have or will address the substantiated allegations. (See Appendix B for a
           summary of the specific allegations.)

           Defense Planning Guidance. The Secretary of Defense’s Defense Planning
           Guidance for FYs 2004 through 2009, May 2002, states that “the Chairman of the
           Joint Chiefs of Staff will demonstrate a new collaborative, adaptive planning tool
           that will greatly expedite development of alternative Courses of Action Time
           Phased Force Deployment Data in support of war plans.”

           CFAST System. The CFAST system was adopted by the Joint Staff to meet the
           Defense Planning Guidance requirement to provide a collaborative tool that
           would shorten the war planning process. The development of CFAST began as a
           local U.S. Pacific Command initiative that was part of the Dynamic Time-Phased
           Force Deployment Data1 development effort, which was an effort designed to
           support the production of war plans in a more timely and effective manner. U.S.
           Pacific Command personnel stated that they contracted with DPRA Incorporated
           to use the CFAST system for deliberate planning.2 The personnel also stated that
           they presented the initiative to the Joint Staff for further development and
           worldwide use because of the application’s potential long-term ability to meet
           DoD needs.
           The Joint Staff adopted CFAST as a system that would provide the ability to
           rapidly determine transportation requirements; aid in the analyses of courses of
           action; and project the delivery of troops and equipment by air, land, and sea.
           The Joint Staff promoted CFAST to the planning community as a system that
           could be used to meet planning requirements set forth by the Secretary of Defense
           in the Defense Planning Guidance. In FY 2002, the Joint Staff began to fund the
           contract for CFAST with DPRA Incorporated. In FY 2004, the Secretary of
           Defense requested that CFAST development be accelerated and that CFAST



1
    Dynamic Time-Phased Force Deployment Data is a collaboratively sourced, prioritized, validated, and
    scheduled movement of troops and supplies in real-time. The data is capable of being manipulated in
    response to changing priorities or scenarios.
2
    Deliberate planning is defined by the Joint Staff as “planning for a possible contingency, based upon the
    best available information.”



                                                       1
           include crisis-planning3 capabilities by FY 2005. The projected cost of CFAST
           from FY 2002 through FY 2009 is approximately $87.4 million. As of May 2004,
           DoD had obligated approximately $19.8 million for the development of CFAST.
           Of the $19.8 million, approximately $18.5 million was funded by the Joint Staff
           with Research, Development, Test, and Evaluation, Budget Activity 7 funds,
           which are funds for systems in the development phase that are considered to be
           functional and near full production. The Joint Staff and the U.S. Pacific
           Command funded the remaining $1.3 million with Operation and Maintenance
           funds.

           Program Management. DoD had not appointed a program manager for the
           CFAST project from its initiation through June 2004. The Joint Staff performed
           the duties of the program manager from early 2002. On June 23, 2004, the Vice
           Chairman of the Joint Chiefs of Staff issued a memorandum, “Collaborative Force
           Analysis, Sustainment, and Transportation System (CFAST) Future
           Development,” which assigns the U.S. Joint Forces Command (USJFCOM) as the
           functional proponent of CFAST and the Defense Information Systems Agency
           (DISA) as the lead Component and “Materiel Solution Provider.”

           GCCS-J System. GCCS-J is the DoD joint command and control system used to
           provide accurate, complete, and timely information for the operational chain of
           command. GCCS-J consists of the hardware, software, common procedures,
           standards, and interfaces that make up an “operational architecture” and provides
           worldwide connectivity with all levels of command. GCCS-J incorporates
           systems that provide situational awareness, support for intelligence, force
           planning, readiness assessment, and deployment applications that battlefield
           commanders require to effectively plan and execute joint military operations.


Objectives
           Our audit objective was to determine the validity of the allegations concerning the
           development of the CFAST system. Specifically, we determined whether DoD
           and the Joint Staff took appropriate actions to develop the system. We also
           reviewed the management control program as it applied to the objective. See
           Appendix A for a discussion of the scope and methodology, our review of the
           management control program, and prior audit coverage related to Defense
           planning systems. See Appendix B for a summary of the allegations.




3
    Crisis planning is defined by the Joint Staff as “planning based on current events and conducted in time-
    sensitive situations and emergencies using assigned, attached, and allocated forces and resources.”




                                                       2
                   Management of the Collaborative Force-
                   Building, Analysis, Sustainment, and
                   Transportation System
                   The Joint Staff did not take appropriate actions to document CFAST
                   development. Specifically, the Joint Staff did not comply with Chairman
                   of the Joint Chiefs of Staff (CJCS) guidance while developing the CFAST
                   system because the Joint Staff had not prepared the required Joint
                   Capabilities Integration and Development System documentation. As of
                   June 2004, the Joint Staff had not prepared a functional area analysis, a
                   functional needs analysis, a functional solutions analysis, or an initial
                   capabilities document (ICD). As a result, the Joint Staff did not have the
                   necessary management control documentation to justify the initiation of
                   CFAST, to compare budgeted and actual costs, to measure performance
                   requirements, to track scheduled and actual timelines, or to ensure other
                   systems’ capabilities were taken into consideration.


Criteria
          Management Controls. Management controls are the organization, policies, and
          procedures used to ensure that programs achieve their intended results; that
          resources used are consistent with an organization’s mission; that programs and
          resources are protected from fraud, waste, and mismanagement; that laws and
          regulations are followed; and that reliable data are obtained, maintained, reported,
          and used for program decision making. Numerous statutes and executive
          documents either explicitly or implicitly address the importance of management
          controls.

          DoD Acquisition Policy. DoD Directive 5000.1, “The Defense Acquisition
          System,” May 12, 2003, requires program managers to establish program goals
          for cost, schedule, and performance parameters that describe the program over its
          life cycle. DoD Directive 5000.1 also states that approved program baseline
          parameters will serve as control objectives and that the program manager is
          required to identify deviations from approved program baseline parameters and
          exit criteria. Further, the “Interim Defense Acquisition Guidebook,” October 30,
          2002,4 states that the program manager should identify deviations from the
          approved program baseline parameters and exit criteria as material control
          weaknesses.

          DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
          2003, defines acquisition category (ACAT) II programs as major systems that
          have an estimated total expenditure of less than $365 million but more than
          $140 million for research, development, test, and evaluation or less than
          $2.19 billion but more than $660 million for procurement. DoD

4
    Formerly DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
    (MDAPs) and Major Automated Information System (MAIS) Acquisition Programs,” April 5, 2002.



                                                   3
                 Instruction 5000.2 defines an ACAT III program as any program that does not
                 meet the minimum requirements for an ACAT II program. ACAT III programs
                 follow Component-level instructions for the development of required
                 management control documentation. ACAT III programs, to include CFAST, are
                 required to have documented management control information that justifies
                 program initiation and that can be used to compare budgeted and actual costs, to
                 measure performance, to track scheduled and actual timelines, and to evaluate
                 alternative solutions.

                 CJCS Requirements. CJCS Instruction 3170.01D, “Joint Capabilities
                 Integration and Development System,” March 12, 2004,5 establishes policies and
                                                                                  TP   PT




                 procedures to identify, assess, and prioritize joint military capability needs. The
                 Joint Capabilities Integration and Development System is designed to take
                 advantage of new, revolutionary capabilities in technologies that previously had
                 not been used in joint concepts. The CJCS Instruction requires that the sponsor6           TP   PT




                 develop a functional area analysis, a functional needs analysis, and a functional
                 solutions analysis before creating an ICD for the development of ACAT III
                 programs.

                          •   The functional area analysis identifies the operational tasks,
                              conditions, and standards needed to achieve a desired capability.

                          •   The functional needs analysis assesses the ability of current programs
                              and systems to accomplish the tasks identified in the functional area
                              analysis. Tasks that are beyond the ability of current programs and
                              systems are identified as capability gaps.

                          •   The functional solutions analysis is an assessment of potential
                              approaches to solving or mitigating one or more of the capability gaps
                              identified in the functional needs analysis.

                          •   The ICD defines the capability gaps and includes a summary of the
                              functional solutions analysis, an analysis of approaches, and a
                              recommendation for the best approach. Capability gap definitions
                              state the needed task and include measures of effectiveness, such as
                              time, distance, effect, and obstacles to overcome, and are general
                              enough to not bias decisions in favor of a particular means of
                              implementation. The functional solutions analysis summary includes
                              the best approaches to provide the capability. The approaches
                              considered should include systems that could potentially provide the
                              needed capability, and each approach is assessed for how well it
                              addresses the capability gap. The recommendation should describe the
                              best approach based on cost, efficiency, performance, technological
                              maturity, delivery timeframes, and risk.


5
TP   PT   CJCS Instruction 3170.01D canceled CJCS Instruction 3170.01C, “Joint Capabilities Integration and
          Development System,” June 24, 2003, and made no significant changes to the requirements addressed in
          this report.
6
TP   PT   The sponsor is the DoD Component responsible for all funding actions required to support the
          development and acquisition process for a specific capability.



                                                            4
Program Documentation
    The Joint Staff did not take appropriate actions to document CFAST
    development. The Joint Staff was not in compliance with CJCS
    Instruction 3170.01D because it had not prepared the required Joint Capabilities
    Integration and Development System documentation. Specifically, as of
    June 2004, the Joint Staff had not prepared a functional area analysis, a functional
    needs analysis, a functional solutions analysis, or an ICD. Joint Staff personnel
    stated that they did not complete the required documentation because of time
    constraints and because individuals working with CFAST were operational
    planners, not acquisition professionals, and were not fully aware of acquisition
    documentation requirements. However, in order to properly manage the
    acquisition of any automated information system, documentation is necessary to
    ensure a logical progression through a series of phases designed to reduce risk,
    ensure cost-effectiveness, and provide adequate information for decision making.

    CFAST Functional Area Analysis. The Joint Staff did not document identified
    operational tasks, conditions, timeframes, and standards that needed to be
    achieved during the planning process. The operational tasks addressed in the
    functional area analysis are the baseline for the functional needs analysis.

    CFAST Functional Needs Analysis. The Joint Staff did not document identified
    capability gaps between current planning systems and needed planning
    capabilities. The functional needs analysis justifies the initiation of a program
    and establishes documented management control information.

    CFAST Functional Solutions Analysis. The Joint Staff did not document its
    consideration of possible alternative solutions to capability gaps. The assessment
    documented by a functional solutions analysis identifies alternative solutions and
    avoids the duplication of efforts.

    The Joint Staff had no documentation to show that it had considered alternatives
    to the development of CFAST before funding its development. DISA is the
    program manager for the GCCS-J. GCCS-J incorporates force planning and
    readiness assessment applications required by battlefield commanders to
    effectively plan and execute military operations. The Joint Operation Planning
    and Execution System (JOPES) is one of the GCCS-J planning and readiness
    assessment applications. Of 21 tasks identified in the CFAST statement of work,
    DISA determined that JOPES is able to entirely perform 10 and partially perform
    another 7 of the CFAST tasks. For example, both CFAST and the JOPES are able
    to determine the feasibility of time-phased force and deployment data, source
    time-phased force and deployment data, and update information in real time.
    Without the functional solutions analysis, there was no documented assurance
    that upgrades to the JOPES and the development of CFAST were not duplicating
    one another.

    CFAST ICD. The Joint Staff did not document the capabilities needed or
    address potential solutions in the functional needs analysis and the functional
    solutions analysis. According to CJCS Instruction 3170.01D, the ICD should
    identify the need for an approach to a specific capability gap derived from an


                                         5
    initial analysis of approaches executed by the operational user and, as required, an
    independent analysis of alternatives.


Conclusion
    As a result of not having prepared the required documents, the Joint Staff did not
    have the necessary management control documentation to justify the initiation of
    CFAST, to compare budgeted and actual costs, to measure performance
    requirements, to track scheduled and actual timelines, or to ensure other systems’
    capabilities were taken into consideration.

    Without the required management control documentation, program managers
    cannot provide assurance that cost, schedule, and performance thresholds are
    being achieved and that the program is cost-effective. Without that
    documentation for CFAST, the program manager will not have the information
    necessary to make informed program decisions on the readiness of CFAST as it
    continues in the acquisition process.


Management Action Taken
    On June 23, 2004, the Vice Chairman of the Joint Chiefs of Staff issued a
    memorandum, “Collaborative Force Analysis, Sustainment, and Transportation
    System (CFAST) Future Development,” that assigned USJFCOM as the
    functional proponent of CFAST and DISA as the lead Component and “Materiel
    Solution Provider.” The June 2004 memorandum states that USJFCOM is
    responsible for the management control documentation of CFAST and that DISA
    will assign a CFAST program manager and provide future funding for the
    development of CFAST. The memorandum also requested that USJFCOM and
    DISA provide a plan of action for the future development of CFAST.

    Specifically, the memorandum states that USJFCOM, as the functional proponent,
    is assigned the following responsibilities:
           a. Perform capabilities analysis and map the CFAST Requirements
           Utilization Document to the Global Command and Control System –
           Joint (GCCS-J) Requirements Identification Documents (RID) and
           Joint Command and Control (JC2) Capabilities Development
           Document (CDD).

           b. Provide a Quick Look capabilities needs analysis no later than
           July 2004, and final capabilities needs analysis by October 2004.

           c. Interface with Combatant Commands, Services, and Joint Staff for
           overall requirements, update the JC2 CDD as necessary, and coordinate
           with the Joint Staff J-3 to update the GCCS-J RID, if applicable, no
           later than June 2005.




                                            6
    As the lead Component, DISA will assign CFAST a program manager, provide
    future funding for CFAST, and field the CFAST 3.0 operational prototype. In
    addition, the memorandum states that DISA will:
           d. Conduct CFAST technical assessment no later than October 2004.
           Assessment will include testing, evaluation, and certification
           compliance, and CFAST ability to meet requirements to connect to
           Service unit move data.



Recommendation, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    the draft recommendation to produce a CFAST ICD.

    We recommend that the Commander, U.S. Joint Forces Command develop
    management control information for the Collaborative Force-Building,
    Analysis, Sustainment, and Transportation system (as required by Chairman
    of the Joint Chiefs of Staff Instruction 3170.01D, “Joint Capabilities
    Integration and Development System,” March 12, 2004).

    Management Comments. The Chief of Staff, USJFCOM partially concurred
    with the recommendation. He concurred with the development of management
    control documentation and nonconcurred that an ICD should be required. He
    stated that USJFCOM is conducting a “Quick Look and Final Capability Needs
    Analysis,” which will determine whether an ICD is required. The analysis is
    expected to be completed by January 30, 2005.

    Audit Response. Although the Chief of Staff only partially concurred, we
    consider the comments responsive. As a result of his comments, we revised the
    recommendation to delete the specific requirement for the creation of an ICD.
    The actions proposed by the Chief of Staff, USJFCOM satisfy the intent of the
    recommendation. Additional comments are not required.




                                          7
Appendix A. Scope and Methodology
   We examined the six allegations made to the Defense Hotline concerning the
   development of the CFAST system. We reviewed DoD guidance spanning from
   1996 through 2004 that governs the acquisition, interoperability, and
   supportability of systems. Specifically, we reviewed DoD guidance to determine
   the required documentation and process for developing CFAST and compared
   required against actual documents generated by the Joint Staff. We analyzed
   DoD directives, DoD and CJCS instructions, DoD regulations, memorandums,
   and planning guidance. We interviewed personnel from the following offices:

          •   Under Secretary of Defense (Comptroller)/Chief Financial Officer;

          •   Assistant Secretary of Defense (Networks and Information
              Integration);

          •   Deputy Assistant Secretary of Defense (Resources and Plans);

          •   Joint Staff,

                  − Manpower and Personnel Directorate (J-1),

                  − Intelligence Directorate (J-2),

                  − Operations Directorate (J-3),

                  − Logistics Directorate (J-4),

                  − Strategic Plans and Policy Directorate (J-5),

                  − Command, Control, Communications, and Computers Systems
                    Directorate (J-6),

                  − Operational Plans and Joint Force Development Directorate
                    (J-7),

                  − Force Structure, Resources, and Assessment Directorate (J-8);

          •   USJFCOM;

          •   U.S. Pacific Command;

          •   U.S. Transportation Command;

          •   DISA;

          •   Department of Energy, Oak Ridge National Laboratory; and

          •   DPRA Incorporated.



                                       8
    At each location we discussed the development of CFAST and the related
    Defense Hotline allegations. We performed this audit from January through July
    2004 in accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit, and we did not review the functionality of CFAST or any other
    computer system named in this report.

    Use of Technical Assistance. We received technical assistance from the Office
    of General Counsel and the Information Technology Branch, Technical
    Assessment Division, Office of the Inspector General of the Department of
    Defense as well as from DISA. The Office of General Counsel assisted with the
    review of the CFAST contract, and the Information Technology Branch assisted
    with the review of developmental software documentation as well as aiding in the
    determination of whether CFAST duplicated other DoD programs. DISA created
    a matrix that outlined the duplication of efforts that occurred between CFAST and
    the JOPES.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Systems Modernization high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of Joint Staff management controls over the CFAST system.
    Specifically, we reviewed the Joint Staff management control program pertaining
    to the maintenance of documentation to support CFAST as required by CJCS
    Instruction 3170.01D. We also reviewed the adequacy of management’s self-
    evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the Joint Staff, as defined by DoD Instruction 5010.40.
    Joint Staff management controls were not adequate to ensure that documentation
    for CFAST was prepared as required by CJCS Instruction 3170.01D. We did not
    request comments on the material management control weakness from the
    Director, Joint Staff because the June 23, 2004, Vice Chairman of the Joint Chiefs
    of Staff memorandum transferred responsibility for developing management
    control documentation to USJFCOM. A copy of the report will be provided to the
    senior official responsible for management controls at the Joint Staff and
    USJFCOM.




                                        9
    Adequacy of Management’s Self-Evaluation. Joint Staff officials identified
    CFAST as part of an assessable unit. However, in their evaluation, Joint Staff
    officials did not identify the specific material management control weakness
    identified by this audit in their annual statement of assurance because they did not
    consider the weakness important enough to report to higher management.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) issued three reports related to management controls over Defense
    planning systems. Unrestricted IG DoD reports can be accessed over the Internet
    at http://www.dodig.osd.mil/audit/reports.

    IG DoD Report No. D-2004-068, “Global Command and Control
    System-Korea (U),” April 6, 2004 (SECRET/NOFORN)

    IG DoD Report No. D-2003-078, “Global Command and Control System Joint
    Operation Planning and Execution System,” April 15, 2003

    IG DoD Report No. D-2002-133, “Global Command and Control System
    Readiness Assessment System Output Tool,” July 24, 2002




                                         10
Appendix B. Summary of Allegations
   Except for the diversion of funds, the allegations made to the Defense Hotline
   were substantiated. However, management actions initiated or planned either
   have or will address the substantiated allegations.

   Allegation 1. CFAST was not based on vetted requirements, nor does it have a
   documented joint planning and execution community requirement.

   Results. The allegation was substantiated. CFAST was not based on vetted
   requirements, nor did it have proper Joint Capabilities Integration and
   Development System documentation. However, the Defense Planning Guidance
   for FYs 2004 through 2009 states that “the Chairman of the Joint Chiefs of Staff
   will demonstrate a new collaborative, adaptive planning tool that will greatly
   expedite development of alternative Courses of Action Time Phased Force
   Deployment Data in support of war plans.”

   CJCS Instruction 3170.01D requires that the Joint Staff develop an ICD in the
   course of developing systems. Joint Staff personnel stated on June 21, 2004, that
   an ICD had not been completed. On June 23, 2004, the Vice Chairman of the
   Joint Chiefs of Staff issued a memorandum assigning USJFCOM as the functional
   proponent of CFAST and DISA as the lead Component. The memorandum also
   requested that USJFCOM and DISA provide a plan of action for the future
   development of CFAST. That plan of action will ultimately determine the need
   for an ICD.

   Allegations 2 and 3. CFAST is not compliant with the common operating
   environment (COE), and the Joint Staff is not following DoD guidance
   (memorandums, instructions, and manuals) on system development to ensure that
   CFAST is interoperable with GCCS-J.

   Results. The allegation was substantiated. The Joint Staff did not follow DoD
   regulations requiring COE compliance and interoperability. Because CFAST is
   not COE compliant, DISA has not allowed CFAST to interface with GCCS-J.
   Officials from the Joint Staff stated that the inability of the CFAST system to be
   interoperable with GCCS-J would adversely affect CFAST capabilities.
   DoD Directive 4630.5, “Interoperability and Supportability of Information
   Technology (IT) and National Security Systems (NSS),” January 11, 2002, which
   was in effect until May 2004, states that each DoD Component is required to
   implement procedures to ensure the use of COE and COE-compliant technology.
   In addition, the Deputy Secretary of Defense memorandum, “Global Information
   Grid Enterprise Services: Core Enterprise Services Implementation,”
   November 10, 2003, states that all fielded support systems for joint forces and
   combatant commands must continue to use and implement the COE requirements.
   DoD Directive 4630.5 requires interoperability of all DoD information
   technology systems, including those in acquisition programs and pre-acquisition
   demonstrations.



                                        11
Officials from the Joint Staff stated that CFAST was intentionally developed
without ensuring COE compliance. According to personnel involved with the
development of CFAST, COE compliance was viewed as a hindrance to the rapid
development of CFAST. They stated that COE compliance was outdated. In
addition, they stated that building CFAST to meet COE-compliance requirements
would adversely affect the technological benefits of CFAST. DISA personnel
stated that all systems that access GCCS-J data must be COE compliant. Because
CFAST is not COE compliant, there is no assurance that the systems will be
interoperable.

DoD Directive 4630.5 was reissued on May 5, 2004, and canceled DoD
Directive 4630.5, January 11, 2002, which was in place during the development
of CFAST. The new directive does not require COE compliance; it emphasizes
the DoD Global Information Grid and the need for data exchange. DISA officials
stated that once DISA is the lead Component for CFAST, they will evaluate the
significance of CFAST not being COE compliant and will determine whether
CFAST should be COE compliant. Although the allegation was substantiated, the
ongoing development of CFAST is not in violation of the 2004 DoD
Directive 4630.5.

Allegation 4. CFAST does not have an executive agent.

Results. The allegation was substantiated. As of June 2004, DoD had not
appointed an executive agent for CFAST, which had not had an executive agent
since its inception. The Joint Staff performed the duties of a program manager
from early 2002. The Vice Chairman of the Joint Chiefs of Staff issued a
memorandum on June 23, 2004, that assigns DISA as the lead Component and
USJFCOM as the functional proponent of CFAST.

Allegation 5. CFAST will cost $100 million by 2009 and is diverting funds from
GCCS-J that could go to the deployment of GCCS-J version 4.

Results. The allegation was not substantiated. Funds were not diverted from
GCCS-J; they were reprogrammed. The cost projected for CFAST from FY 2002
through FY 2009 in the statement of work is approximately $87.4 million. As of
May 2004, the Joint Staff and the U.S. Pacific Command had obligated
approximately $19.8 million for the development of CFAST and its components.
Additionally, funding was reprogrammed from GCCS-J to CFAST. However, the
reprogramming action followed DoD and Under Secretary of Defense
(Comptroller)/Chief Financial Officer guidance.

DoD Regulation 7000.14-R, “Department of Defense Financial Management
Regulation,” volume 2A, chapter 1, June 2002, states that DoD Components can
reprogram funds if the funds are below a certain threshold, which is called below-
threshold reprogramming. For FY 2004, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer established the below-threshold level at
$10 million or 20 percent of the line item from which the funding is
reprogrammed, whichever is less.

In FY 2004, CFAST was to receive an additional $9.9 million from one system
managed by DISA as part of the effort to accelerate CFAST. However, that


                                    12
action would have violated the established below-threshold level. Instead, the
Under Secretary of Defense (Comptroller)/Chief Financial Officer and DISA
decided to reprogram funds from six programs. One of those programs was
GCCS-J, from which $1 million was reprogrammed. Before the reprogramming
action, GCCS-J had a budget of approximately $51.6 million. The $1 million,
1.94 percent of the GCCS-J budget, was within the established below-threshold
level.

Allegation 6. CFAST is a proprietary system.

Results. The allegation was substantiated. DPRA Incorporated, the contractor
developing CFAST, owns the CFAST source code. However, it is not contrary to
DoD regulations for contractors to maintain proprietary rights to source code.

The Office of General Counsel, Office of the Inspector General of the Department
of Defense reviewed the contract between DoD and DPRA Incorporated and
stated that “the Technical Data clause stated that the government has unlimited
rights in Form, Fit, and Functions data. In the definition above, however, source
code is specifically excluded.”

According to the “Defense Federal Acquisition Regulation Supplement”
(DFARS), August 17, 1998, DoD contracts do not have to be written in a manner
to obtain source code for software and information systems acquired. DFARS
Subpart 227.7203-1(a) states that DoD policy is to acquire only the computer
software and the rights to such software as necessary to satisfy the needs of DoD.
In addition, DFARS Subpart 227.7203-4(a) states that the contractor retains all
rights in the software not granted to DoD. The contractor may also restrict the
rights of DoD to share with any outside entity the data developed partially at
private expense. Although the allegation was substantiated, the issuance of the
contract was not in violation of DoD regulations.




                                    13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Pacific Command
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Defense Information Systems Agency




                                          14
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        15
U.S. Joint Forces Command Comments
                                     Final Report
                                      Reference




                                     Revised




                    17
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Brett A. Mansfield
Michael J. Guagliano
James E. Miniter
Peter C. Johnson
Elizabeth N. Shifflett
